OFFICE OF INSPECTOR GENERAL
            Audit Report
 Fiscal Year 2010 Financial Statement Audit
            Letter to Management


             Report No. 11-03
             January 25, 2011




 RAILROAD RETIREMENT BOARD
                      UNITED STATES RAILROAD RETIREMENT BOARD

                                    OFFICE OF INSPECTOR GENERAL




                                                                                     January 25, 2011


Michael S. Schwartz
Chairman
U.S. Railroad Retirement Board


The purpose of this letter is to transmit a memorandum on internal control
communicating certain matters concerning internal control that came to our
attention during our recent audit of the Railroad Retirement Board’s (RRB)
financial statements.

We have audited the RRB’s general purpose financial statements and issued our
report thereon dated November 5, 2010, except for matters relating to the fair
market value of the net assets of the National Railroad Retirement Investment
Trust as of September 30, 2010, as to which the date was November 15, 2010.
We performed our audit in accordance with U.S. generally accepted government
auditing standards and Office of Management and Budget (OMB) audit guidance
as applicable to the scope of our audit. 1 We have not considered internal control
since we obtained sufficient appropriate audit evidence to support the audit
opinion on November 5, 2010; internal control was not among those matters to
which we gave consideration between November 5th and November 15th.

During our audit, we noted certain matters involving the RRB’s internal control
structure and its operation that, individually, did not rise to the level of a
significant deficiency, the details of which are presented in the attached
memorandum. That memorandum also presents the full text of those matters
previously reported as material weaknesses in conjunction with our opinion on
the financial statements. However, neither this letter, nor the attached
memorandum, modifies our report dual dated as of November 5, 2010, and
November 15, 2010, referred to above.

Our observations concerning internal control were presented to responsible
agency management who were offered the opportunity to review and comment
on the draft memorandum. Their responses are also attached.




1
 See our report on the RRB’s financial statements for a full description of the scope and
methodology.
844 N RUSH STREET CHICAGO IL 60611-2092                                             Printed on recycled paper
In planning and performing this audit, we considered internal control in order to
determine our auditing procedures for the purpose of issuing our report on the
RRB’s principal financial statements and not to provide assurance on internal
control. The maintenance of adequate internal control designed to fulfill the
RRB’s control objectives is the responsibility of management. Because of
inherent limitations in any system of internal control, errors or irregularities may
nevertheless occur and not be detected. Also, controls found to be functioning at
a point in time may later be found deficient because of the performance of those
responsible for applying them. There can be no assurance that controls currently
in existence will prove to be adequate in the future as changes take place in the
organization.

Our work was not conducted for the primary purpose of making detailed
recommendations about the RRB’s system of internal control. Had we done so,
other matters might have come to our attention that we would have reported to
you.

We wish to express our appreciation for the many courtesies and cooperation
extended to us during the audit.


                                                 Very truly yours,

                                                 …Original signed by …


                                                 Martin J. Dickman
                                                 Inspector General



Attachments

cc: V.M. Speakman, Jr., Labor Member
    Jerome F. Kever, Management Member
    Kenneth P. Boehne, Chief Financial Officer
    Beatrice E. Ezerski, Secretary to the Board




844 N RUSH STREET CHICAGO IL 60611-2092                              Printed on recycled paper
Letter to Management                                                                                      Page 1
                                 Memorandum on Internal Control



                                     Table of Contents

MATERIAL WEAKNESSES 
  Information Security............................................................................................. 2 

  Internal Control Over Non-Integrated Sub-Systems ........................................ 2 



OTHER MATTERS INVOLVING INTERNAL CONTROL 
  Controls Over Report Preparation Are Not Fully Effective ............................. 3 

  Controls Over FFS Budgetary Entries ............................................................... 4 

  Agreement with U.S. Standard General Ledger................................................ 5 



Status of Prior and Current Year Recommendations .......................7 


ATTACHMENT 
  Bureau of Fiscal Operations’ Management’s Response ................................. 8 
Letter to Management                                                                     Page 2
                             Memorandum on Internal Control

MATERIAL WEAKNESSES

In conjunction with the Office of Inspector General’s (OIG) opinion on the RRB’s
financial statements for the fiscal years (FY) ended September 30, 2010 and
2009, we reported the following material weaknesses. 1

Information Security

During FY 2010 the OIG evaluated the RRB's information security program
pursuant to the provisions of the Federal Information Security Management Act
of 2002 (FISMA). 2 OIG auditors concluded that although the agency addressed
the significant deficiency in access controls, some weaknesses continue to exist.
However, weaknesses regarding the certification and accreditation process
remain unresolved. Although a more detailed review process is being performed
by the agency, changes in the agency’s certification and accreditation control
process are not yet sufficient.

RRB managers are working to address this weakness.


Internal Control Over Non-Integrated Sub-Systems

The RRB’s financial reporting control structure is not comprehensive with respect
to the reconciliation of the general ledger to non-integrated sub-systems. The
OIG previously reported this issue as a result of its audits of the agency’s
financial statements performed during FYs 2000, 2001, 2008 and 2009.

During the fourth quarter of FY 2010, the agency created an inventory of the
various non-integrated systems that support financial accounting. Although this
shows that progress is being made to address this material weakness, the
agency has not yet implemented a comprehensive reconciliation process with
adequate separation of duties.

RRB managers are working to address this weakness.




1
  “Report on the Railroad Retirement Board’s Fiscal Year 2010 Financial Statements,” OIG Report
No. 11-02, November 15, 2010.
2
  “Fiscal Year 2010 Evaluation of Information Security at the Railroad Retirement Board,” OIG
Report No. 11-01, November 5, 2010.
Letter to Management                                                                  Page 3
                            Memorandum on Internal Control

OTHER MATTERS INVOLVING INTERNAL CONTROL

During our audit, we also noted certain other matters involving the RRB’s internal
control structure and its operation. Although these matters do not rise to the
level of a material weakness or significant deficiency, either individually or in the
aggregate, they represent areas in which control weaknesses increase the risk of
error or mishandling.

Readers should be aware that the noted errors were corrected prior to the
publication of the FY 2010 Performance and Accountability Report.

The details of our observations and recommendations for corrective action follow.


Controls Over Report Preparation Are Not Fully Effective

We previously recommended that the Bureau of Fiscal Operations (BFO):

        Determine the cause of the errors identified during our audit, whether
        existing controls were in operation [throughout the year], and whether
        additional controls may be required to ensure that the financial
        statements, notes, and supporting schedules are properly [prepared]. 3

During the FY 2010 audit, we continued to find errors in the preparation of
financial statements, notes and supporting BFO schedules as described below.

    •   An OIG appropriation was not recorded on the correct line of the
        June 30, 2010 Statement of Budgetary Resources, which created an
        understatement of $8,186,000 on one line and an overstatement for the
        same amount on another line.

    •   A contingency was erroneously included as part of the financial statement
        line caption “Change in NRRIT Net Assets” on the June 30, 2010 Statement
        of Changes in Net Position as well as in the supporting workpapers. As a
        result, the amount recorded for the caption “Change in NRRIT Net Assets”
        was overstated by $900,000.

    •   The June 30, 2010 earmarked funds note erroneously included an
        elimination that was for non-earmarked funds, causing an understatement of
        $807,000 for the two net cost of operations amounts recorded in the note.




3
 “Fiscal Year 2007 Financial Statement Audit Letter to Management,” OIG Report No. 08-01,
March 6, 2008, Recommendation 9. The text presented above has been corrected. Corrected text is
presented in square brackets.
Letter to Management                                                                   Page 4
                            Memorandum on Internal Control

    •   There was an insufficient audit trail for an adjustment included in the
        March 31, 2010 Statement of Budgetary Resources. The adjustment was
        not supported by BFO’s adjusting entry worksheet. The offsetting effect of
        the $600,000 adjustment had no financial impact.

    •   The September 30, 2010 earmarked funds note for the special-purpose
        financial statement included amounts that were not properly placed into the
        predefined categories as required by the Treasury Financial Manual. As a
        result, amounts provided for the category “investment revenue from
        Treasury securities” for FY 2010 and FY 2009 were overstated by
        $442 million and $2 billion, respectively. Amounts provided for the category
        “other taxes and receipts” for FY 2010 and FY 2009 were understated by
        $442 million and $2 billion, respectively.

According to the U. S. Government Accountability Office (GAO) Standards for
Internal Control in the Federal Government, internal control is an integral
component of an organization’s management that provides reasonable
assurance that the objective for the reliability of financial reporting is being
achieved. Internal control and all transactions and other significant events need
to be clearly documented, and the documentation should be readily available for
examination. In addition, control activities help to ensure that all transactions are
completely and accurately recorded. 4

These errors occurred because the internal controls are not fully effective. The
OIG’s prior recommendation for corrective action is pending. Although BFO
management has taken steps to address this recommendation, errors continue to
occur. No additional recommendations will be offered at this time.


Controls Over FFS Budgetary Entries

The RRB uses the Federal Financial System (FFS) to support general ledger
accounting for proprietary and budgetary transactions. During our review, we
identified an entry in FFS that was not supported by the amount appropriated by
law. The annual appropriation of $150,000 for fund 0113, Federal Payments to
the Railroad Retirement Accounts was entered twice in FFS.

Public law provides the amount that should be appropriated annually. The
amount recorded in FFS should agree to the appropriation.

Budgetary entries are recorded in the general ledger by individuals in BFO’s
Budget Section. This error occurred because BFO staff was uncertain about how
to best represent the appropriation for this multi-year fund in FFS. In addition,

4
 “Standards for Internal Control in the Federal Government,” GAO/AIMD-00-21.3.1 (11/99) pages 4
and 15.
Letter to Management                                                        Page 5
                        Memorandum on Internal Control

BFO’s review and approval procedures are not sufficient to ensure that the
appropriations agree with the law.

As a result of the duplicate entry, RRB appropriations were overstated by
$150,000.

Recommendation

We recommend that BFO:

      1. develop procedures to ensure that appropriations recorded in FFS
         agree with the law.

Management’s Response

The Budget Division will develop procedures to ensure that appropriations recorded
in FFS agree with the law.


Agreement with U.S. Standard General Ledger

Some RRB general ledger accounts are not in agreement with the
U. S. Standard General Ledger (USSGL). During the FY 2010 audit, we found
that BFO continued to record investment interest, which has a debit balance, in a
general ledger account whose definition had been revised to an investment
allowance for loss account, which should have a credit balance. Although the
USSGL revisions had been made in December 2009, BFO continued to use
incorrect general ledger accounts through May 2010. The corrections to the
general ledger were made as a result of the OIG’s notification.

The USSGL is the core of financial reporting. It provides detailed information
through general ledger accounts and transactions that ultimately provide
information to readers of financial statements. Any changes or updates as a
result of legislative enactment affect the USSGL. In order to comply with
Governmental guidance set forth by bodies such as the Department of Treasury,
Federal Accounting Standards Advisory Board, the Office of Management and
Budget, and new systems requirements, USSGL accounts and transactions are
established to reflect new reporting requirements.

BFO reviews the USSGL in August of each year for changes that need to be
made to the financial statement template or the general ledger. However, this
review is not timed to coincide with the periodic updates published by the
Department of the Treasury. As a result, the RRB’s investment interest general
ledger accounts were not properly classified per the latest USSGL chart of
accounts.
Letter to Management                                                     Page 6
                       Memorandum on Internal Control

Recommendation

We recommend that BFO:

      2. develop procedures to review the periodic revisions made to the
         U. S. Standard General Ledger to ensure that appropriate changes are
         made to the RRB’s general ledger.

Management’s Response

The Accounting Section will develop procedures to review the periodic revisions
made to the U.S. Standard General Ledger to ensure that appropriate changes
are made to the RRB’s general ledger.
Letter to Management                                                     Page 7
                       Memorandum on Internal Control



Status of Prior and Current Year Recommendations

We have reviewed the implementation of recommendations resulting from prior
audits of the RRB’s financial statements. The table below presents a summary
of the status of recommendations that were pending when we issued our “Letter
to Management” dated March 11, 2010, in connection to our audit of the RRB’s
FY 2009 financial statements. The additional recommendations resulting from
our audit of the agency’s FY 2010 financial statements are also included.

                                      Report and             Current Status
                                      Recommendation                       In
Bureau                                Number            Implemented    Progress
BUREAU OF FISCAL OPERATIONS           07-01 #11              X
                                      08-01 #9                              X
                                      08-01 #11              X
                                      09-02 #2               X
                                      09-02 #4               X
                                      09-02 #7               X
                                      09-02 #8               X
                                      10-03 #1               X
                                      10-03 #2                              X
                                      10-03 #3                              X
                                      10-03 #4                              X
                                      10-03 #5               X
                                      10-03 #6               X
                                      10-03 #7               X
                                      10-03 #8               X
                                      10-03 #9               X
                                      11-03 #1                              X
                                      11-03 #2                              X

MANAGEMENT CONTROL REVIEW             10-03 #12              X
COMMITTEE
                                      10-03 #13              X

EXECUTIVE COMMITTEE                   10-03 #11              X

OFFICE OF GENERAL COUNSEL             10-03 #10              X

BUREAU OF ACTUARY                     09-02 #9                            X
                                      09-02 #10                           X

OFFICE OF PROGRAMS                    09-02 #12                           X
                                      09-02 #13                           X

           TOTALS                                           16           10
                                                                            ATTACHMENT
                                                                            PAGE 8
                   UNITED STATES GOVERNMENT                                        FORM ;·1I5r 11·821
                                                                   RAILROAD RETIREMENT BOARD
                 . MEMORANDUM
                                                                          JAN 24 2011


TO           :	 Diana Kruel
                Assistant Inspector General for Audit

                                 ~t/U-tr~
FROM         :	 John M. Walter  ?
                Chief of Accounting, Treasury, and Financial Systems


SUBJECT:	 Draft Letter to Management - Fiscal Year 2010 Financia I Statement Audit



Thank you for the opportunity to comment on the Draft Letter to Management. Our
comments on the recommendations are as follows:

Recommendations:

We recommend that BFO:

       1.	    develop procedures to ensure that appropriations recorded in FFS
              agree with the law.

              The BUdgefDivision will develop procedures to ensure that appropriations
              recorded in FFS agree with the law. Target date: July 1, 2011.


      2.	     develop procedures to review the periodic revisions made to the U. S.
              Standard General Ledger to ensure that appropriate changes are
              made to the RRB's general ledger.

              The Accounting Section will de~erop procedures to review the periodic
              revisions made to the U. S. Standard General Ledger tQ ensure that
              appropriate changes are made to the RRB's general ledger. Target date:
              September 30, 2011.


cc:	 Georgia Blalock, Budget Officer
     Ed Fleming, Accounting Officer·
     Rich Lannin, Senior Accountant
     Liz Stubits, Accountant
     Edie Natividad, Accountant
     Bill Flynn, Execl,ltive Assistant
     Debra Stringfellqw-Wheat, Supervisory Auditor
